No. _________

____________________________________
_

In The
Supreme Court of the United
States
_____________________

∆

_____________________

SHERARD MARTIN,
`

v.

Petitioner,

DAVIS MARINEZ, et. al.
_____________________

∆

Respondents.
_____________________

Petition for a Writ of Certiorari to the
United States Court of Appeals,
Seventh Circuit
_____________________ ∆ _____________________
PETITION FOR WRIT OF CERTIORARI
_____________________

∆

_____________________

Stephen L. Richards* Joshua S.M. Richards
53 West Jackson
53 West Jackson
Suite 756
Suite 756
Chicago, IL 60604
Chicago, IL 60604
Email: Sricha5461@aol.com
Phone: (773)-817-6927
*Counsel of record
Attorneys for the Petitioner

i
QUESTION PRESENTED FOR REVIEW:
Whether a plaintiff whose fourth amendment rights have been violated may be
automatically denied damages for subsequent
incarceration, attorneys fees, or economic
loss, merely because the police discover
contraband as the result of the illegal stop?

ii
PARTIES TO THE PROCEEDING
Petitioner is Sherard Martin, the plaintiff
below. Respondents are Chicago police
officers Davis Marinez and Sofia Gonzalez,
as well as the City of Chicago.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED…….....……...…….i
PARTIES TO THE PROCEEDING…….……ii
TABLE OF CONTENTS……………..............iii
TABLE OF
AUTHORITIES…………..…………………….vi
OPINION BELOW………….……….…….…...1
JURISDICTION……………..……….…….......1
PETITION FOR WRIT OF CERTIORARI….1
STATUTES CONSTITUTIONAL
PROVISIONS INVOLVED…...……..………..2
STATEMENT OF THE CASE………….…....3
REASONS FOR GRANTING THE
PETITION…………………………………..…...8

iv
I.
THE DECISION BELOW CONFLICTS
WITH CAREY V. PIPHUS……………...10
II:
THIS COURT SHOULD RESOLVE,
THE ENTRENCHED, DEEPENING
CIRCUIT CONFLICT REGARDING
THE PROPER MEASURE OF
DAMAGES FOR FOURTH
AMENDMENT VIOLATIONS……… ….18
CONCLUSION……………………………..28
APPENDIX
APPENDIX A
September 13, 2019, United States
Court of Appeals for the Seventh Circuit
denied Rehearing and Rehearng en Banc,
Case No. 17-2667, circuit judges
Ripple, Kanne, and Rovner……………App.1
APPENDIX B
August 12, 2019 (Opinion of the United
States Court of Appeals for the Seventh

v
Circuit) Appeal Denied, Case No. 17-2667,
circuit judges Ripple, Kanne, and Rovner
……………………………………………..App.3
APPENDIX C
January 5, 2017 (Memorandum Opinion
and Order United States District Court for
the Northern District of Illinois, Case No.
15-CV-04576 per St. Eve, Judge.)…....App.37

vi
TABLE OF AUTHORITIES

Supreme Court Cases
Carey v. Piphus,
435 U.S. 247 (1978)…9, 10, 11, 12, 13, 15, 21

Exxon Co., U.S.A. v. Sofec, Inc.,
517 U.S. 830 (1996)……….…………………..16

Heck v. Humphrey,
512 U.S. 477 (1994)……………………...14, 15

Manuel v. City of Joliet, Ill.,
137 S. Ct. 911 (2017)…….…………………...15

Memphis Cmty. Sch. Dist. v. Stachura,
477 U.S. 299 (1986)…….……….…………….15

Paroline v. United States,
572 U.S. 434 (2014)…… …………………..…15

Wallace v. Kato,
549 U.S. 384 (2007)……….…………………..14

United States v. Calandra,
414 U.S. 338 (1974)………….. ……………….24

United States v. Peltier,

vii
422 U.S. 531 (1975)…………………….…….24

Other Federal Cases
Borunda v. Richmond,
885 F.2d 1384 (9th Cir. 1988)…....8, 18, 20-23

Carter v. Georgevich,
78 F. Supp. 2d 332 (D.N.J. 2000)
abrogated by Hector v. Watt,
235 F.3d 154 (3d Cir. 2000)………………….18

Gierlinger v. Gleason,
160 F.3d 858 (2d Cir. 1998)…………………..15

Hector v. Watt,
235 F.3d 154 (3d Cir. 2000)………………8, 15

Hector v. Watt,
235 F.3d 154, 162 (3d Cir. 2000)
(Nygaard, J., concurring)…………………….16

Kerr v. City of Chicago,
424 F.2d 1134 (7th Cir. 1970) …..…19, 20, 21

Manuel v. City of Joliet, Illinois,

903 F.3d 667, 669–70 (7th Cir. 2018), cert.

denied sub nom. City of Joliet, Ill. v. Manuel,
139 S. Ct. 2777 (2019)………… …………...14

Olsen v. Correiro,

viii

189 F.3d 52 (1st Cir. 1999)…………….…..15

Townes v. City of New York,
176 F.3d 138, 148 (2d Cir. 1999)..8, 18, 22-25

Train v. City of Albuquerque,
629 F. Supp.2d 1243 (D.N.M. 2009)
…………………………………..8, 18, 26, 27, 28

Statutes
18 U.S.C. Sec. 1983……………………..passim
28 U.S.C. Sec. 1254(1)…………..…………….1
42 U.S.C. Sec. 1983…4, 5, 6, 8-13, 15, 21, 23,
25-27

Constitutional Provisions
U.S. Const., amend. IV……..……..……passim
U.S. Const., amend XIV………..………passim

Secondary Authority

ix

Restatement (Third) of Torts:
Liability for Physical and Emotional
Harm § 29, p. 493 (2005)…,……………….16

1
PETITION FOR WRIT OF CERTIORARI
Attorney Stephen Richards, on behalf of
Petitioner, Sherard Martin, respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of
Appeals for the Seventh Circuit Appendix
Doc. B. (App.3-36)
OPINIONS BELOW
The opinion of the United States Court of
Appeals, Seventh Circuit is reported as
Martin v. Marinez, 934 F.3d 594 (7th Cir.
2019) at App.3-36( Doc B). The memorandum
opinion and order of the United States
District Court for the Northern District of
Illinois, Eastern Division is unreported at
App.37-70 (Doc. C), but is available on
Westlaw at 2017 WL 56633.
JURISDICTION
The Seventh Court of Appeals entered its
opinion on August 12, 2019 at App.3-26 (Doc
B). Rehearing and rehearing en banc was
denied on September 13, 2019 at App.1-2
(Doc A). This court has jurisdiction under 28
U.S.C. Sec. 1254(1).

2
STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
United States Constitution, amend. IV
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or
things to be seized.
United States Constitution, amend. XIV
provides:
All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and
of the State wherein they reside. No State
shall make or enforce any law which shall
abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, with-out due process of law; nor
deny to any per-son within its jurisdiction the
equal protection of the laws.

3
Section 1983 of Title 42 of the U.S. Code
provides:
Every person who, under color of any
statute, ordinance, regulation, custom, or
usage, or any State or Territory or the
District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or
other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress * * * .
STATEMENT OF THE CASE
On the evening of May 24, 2013, Plaintiff
Sherard Martin was driving in Chicago when
Officers Davis Marinez and Sofia Gonzalez
pulled him over. (App.5-Doc. B). According to
Martin, he had not committed any traffic
violations when the officers stopped him,
although the officers claim they initiated the
stop because Martin’s tail and brake lights
were not working. When Officer Gonzalez
approached the car and asked Martin for his
license and insurance, Martin explained that
he did not have his driver’s license because it
had been “taken for a ticket.” At that point

4
both officers asked Martin to step out of the
car as the other defendants, Officers
Armando Chagoya and Elvis Turcinovic,
arrived on the scene. (App. 5, Doc B).
According to Martin, the officers forced him
from the car, conducted a pat-down search,
handcuffed him, and put him into a police
car. At that point, they searched his car,
where they recovered a 9 mm semiautomatic
handgun with a defaced serial number, and a
plastic baggie of crack cocaine. (App.5, 7-8
Doc B.).
Officers then took Martin into custody. At
the police station, Officer Marinez learned
that Martin had previously been convicted of
first-degree murder and unlawful use of a
weapon by a convicted felon. Ultimately
Martin was transferred to Cook County Jail
and charged with four Illinois felonies: (i)
being an armed habitual criminal in violation
of 720 ILCS § 5/24-1.7; (ii) being a felon in
possession of a firearm in violation of 720
ILCS § 5/24-1.1; (iii) possessing a firearm
with a defaced serial number in violation of
720 ILCS § 5/24-5(b); and possessing cocaine
in violation of 720 ILCS § 570/402. He also
received traffic citations under Chicago
Municipal Code Section 9-76-050 (taillight
operation) and 625 ILCS § 5/6-112 (outlining

5
requirement to carry a driver’s license).
(App.6 Doc. B,).
Martin spent sixty-five days—from May 24
through July 29, 2013—incarcerated in
connection with the charges resulting from
the traffic stop. On July 29th, a different
court revoked Martin’s bond when he was
convicted in an unrelated criminal case.
During the course of the criminal proceedings
for the felony charges arising from the traffic
stop, Martin filed a motion to suppress the
evidence, which the trial court granted on
November 7, 2013. The state then dismissed
the charges against Martin through a nolle
prosequi motion. (App.6-7, Doc B).
Martin filed suit in federal court under 42
U.S.C. § 1983 against all of the officers
involved in the stop as well as the City of
Chicago (on a respondeat superior theory of
liability), seeking money damages for violations of his Fourth Amendment rights. Martin sought civil damages totaling $110,500:
$1,000 per day of his 65-day incarceration
and $45,500 in lost business income—
calculated at $700 per day—from his automobile dealership. (App.7, Doc B).
Before trial, the defendants moved for
partial summary judgment, arguing that
even if the stop was unlawful, once the

6
officers saw the handgun and cocaine, they
had probable cause for Martin’s arrest, which
limited Martin’s damages to the short period
between his stop and his arrest. The district
court agreed, granting the defendants’ motion
for partial summary judgment and concluding that although Martin’s § 1983 case could
proceed as to the initial stop of his car and
seizure of his person—before the defendants
discovered the illegal gun and cocaine—he
could not seek damages for conduct postdating the discovery of contraband, including
his 65-day incarceration. (App. 7-8, Doc B).
Martin’s case proceeded to a jury trial,
limited as described above, by the grant of
partial summary judgment. At trial, the facts
largely tracked those described above, with
the same basic areas of conflicting testimony:
(1) Martin testified that his tail and brake
lights were both functioning when he was
stopped; (2) he also testified that he handed
Officer Gonzalez his traffic ticket when he
was unable to produce his license; and (3)
Martin maintained that the handgun was
under the driver’s seat, as opposed to on it
and visible when he stepped out of the car as
directed by Officers Gonzalez and Marinez.
(App.8, Doc. B).

7
The district court instructed the jury to
decide the following Fourth Amendment
questions: (1) whether the officers “unlawfully seized” Martin without reasonable
suspicion to support a traffic stop; (2) whether they falsely arrested him without probable
cause; and (3) whether they unlawfully
searched his person or car without probable
cause. The court also instructed the jury that
if they found that Martin proved his claims,
they could not award him damages for any
time spent in custody after officers found the
handgun, and should limit their consideration to the period of detention beginning
with his traffic stop and ending when they
found the gun. The jury found in favor of
Martin and against Officers Marinez and
Gonzalez on the unlawful seizure claim and
awarded him $1.00 in compensatory damages. On that same claim, they found in favor
of Officers Chagoya and Turcinovic, and on
the remaining claims for false arrest and
unlawful search, they found against Martin
and in favor of all four officers. (App.8-9 Doc
B).
On appeal, the Seventh Circuit affirmed.
The court noted that there is a “split of
authority on the question of whether a
defendant whose Fourth or Fifth Amendment

8
rights have been violated can recover
damages for incarceration, legal defense fees,
or emotional distress in a subsequent civil
suit under § 1983.” (App.16, Doc B). After
discussion, the Seventh Circuit chose to
follow the rationale of the anti-recovery cases
in the Second, Townes v. City of New York,
176 F.3d 138, 148 (2d Cir. 1999) and Third
Circuits, Hector v. Watt, 235 F.3d 154, 155–
59 (3d Cir. 2000) and to reject the prorecovery rationale of the Ninth, Borunda v.
Richmond, 885 F.2d 1384 (9th Cir. 1988) and
Tenth Circuits. Train v. City of Albuquerque,
629 F. Supp.2d 1243 (D.N.M. 2009). (App. A,
14-33). The court therefore concluded that
Martin was not entitled to recover damages
for his incarceration and economic loss and
affirmed.
REASONS FOR GRANTING THE
PETITION
In the decision below, the Seventh Circuit
held that a plaintiff who is unlawfully
stopped in violation of the Fourth Amendment may not recover damages for the foreseeable consequences of the stop --including
subsequent incarceration, attorney’s fees, and

9
lost income -- so long as, as a result of the
stop, officers discover illegal contraband.
This decision warrants this Court’s review
for two reasons.
First, the decision conflicts with this
Court’s opinion in Carey v. Piphus, 435 U.S.
247, 254 (1978). As this Court is well aware,
Piphus held that which held that while the
“damages awards under section 1983 should
be governed by the principle of compensation,” as established by the common law of
torts, 435 U.S. at 257, the common law rules
of damages will not “provide a complete
solution to the damages issue in every section
1983 case.” 435 U.S. at 258. The Court,
further held that in cases where the “common
law of torts do not parallel closely the
interests protected by a particular constitutional right,” the court’s task will be the
“more difficult one of adapting common-law
rules of damages to provide fair compensation
for injuries caused by the deprivation of a
constitutional right.” 435 U.S. at 259.
The Seventh Circuit failed to follow Carey
in two critical respects. First, the Seventh
Circuit focused heavily on analogies drawn
from the common law tort of malicious
prosecution, which does not “parallel closely”
the interests protected by the Fourth

10
Amendment. (App. A, 10-11). Second, the
Seventh Circuit rejected the time honored
principle of “proximate cause” as a method of
measuring Martin’s injuries. (App. A, 29-30).
The Seventh Circuit’s opinion therefore
conflicts with Carey and merits this court’s
review.
Second, the Seventh Circuit’s decision has
deepened a longstanding split as to the
proper measure for Fourth Amendment
damages, with the Seventh, Second and Third
Circuits standing on the non-recovery side of
the split, and the Ninth Circuit and a court in
the Tenth Circuit standing on the side of
recovery. This split, which dates from 1988,
if not before, and which has never been
resolved by the Court, strongly merits
review.
I.
THE DECISION BELOW CONFLICTS
WITH CAREY V. PIPHUS
In the leading case of Carey v. Piphus, 435
U.S. 247, 254 (1978), this Court forth the
general framework for the assessment of
damages in Section 1983 actions. In an oftquoted passage, this Court stated:

11
“ Insofar as petitioners contend
that the basic purpose of a § 1983
damages award should be to
compensate persons for injuries
caused by the deprivation of
constitutional rights, they have
the better of the argument. Rights,
constitutional and otherwise, do
not exist in a vacuum. Their purpose is to protect persons from
injuries to particular interests,
and their contours are shaped by
the interests they protect.
“Our legal system's concept of
damages reflects this view of legal
rights. “The cardinal principle of
damages in Anglo-American law is
that of compensation for the injury
caused to plaintiff by defendant's
breach of duty.” 2 F. Harper & F.
James, Law of Torts § 25.1, p.
1299
(1956)
(emphasis
in
original).”
435 U.S. at 254–55.
Having recognized that section 1983
damages are intended to compensate for
injuries caused by constitutional violations,
this Court then wrestled with the problem of

12
how to tailor Sec. 1983 damages to particular
constitutional violations:
“[O]ver the
centuries
the
common law of torts has developed
a set of rules to implement the
principle that a person should be
compensated fairly for injuries
caused by the violation of his legal
rights. These rules, defining the
elements of damages and the
prerequisites for their recovery,
provide the appropriate starting
point for the inquiry under § 1983
as well.13”
“It is not clear, however, that
common-law tort rules of damages
will provide a complete solution to
the damages issue in every § 1983
case. In some cases, the interests
protected by a particular branch of
the common law of torts may
parallel closely the interests protected by a particular constitutional right. In such cases, it may
be appropriate to apply the tort
rules of damages directly to the §
1983 action *** In other cases, the
interests protected by a particular
constitutional right may not also

13
be protected by an analogous
branch of the common law torts.
*** In those cases, the task will be
the more difficult one of adapting
common-law rules of damages to
provide fair compensation for
injuries caused by the deprivation
of a constitutional right.”
435 U.S. at 258.
Three major principles emerge from Carey:
(1) Section 1983 plaintiffs can collect
damages for the usual harms caused by common law torts, such as economic or emotional
injury, pecuniary loss and loss of freedom, (2)
the common law rules regarding damages for
particular torts are relevant, if not determinative, and (3) in some instances the Court is
free to disregard the rules regarding common
law torts and fashion rules of recovery more
appropriate to constitutional wrongs.
The Seventh Circuit skipped the third
stage of the analysis, focusing only on an
analogy to the tort of malicious prosecution.
The court concluded that, since the existence
of probable cause is a bar to malicious prosecution, the acquisition of probable cause, even
as the fruit of a poisonous tree, must preclude
damages which accrue after probable cause is

14
acquired. (App.11-13, Doc B). But this conclusion is a non-sequitur.
In other contexts, this Court and other
courts have rejected analogies between the
common law tort of malicious prosecution and
constitutional claims for violation of fourth
amendment rights. See Wallace v. Kato, 549
U.S. 384, 388 (2007)(statute of limitations for
fourth amendment false arrest claims should
be based on analogy to common law tort of
false imprisonment, not common law tort of
malicious prosecution); Manuel v. City of
Joliet, Illinois, 903 F.3d 667, 669–70 (7th Cir.
2018), cert. denied sub nom. City of Joliet, Ill.
v. Manuel, 139 S. Ct. 2777 (2019) (statute of
limitations for fourth amendment fabrication
claim accrues on date of release from custody,
not upon dismissal of charges, as for tort of
malicious prosecution). Conversely, this
Court has analogized the common law tort of
malicious prosecution to Fourteenth Amendment due process and fabrication claims. See
McDonough v. Smith, 139 S. Ct. 2149, 2156
(2019); Heck v. Humphrey, 512 U.S. 477, 484
(1994)(“the common-law cause of action for
malicious prosecution provides the closest
analogy to claims of the type considered here
because, unlike the related cause of action for
false arrest or imprisonment, it permits

15
damages for confinement imposed pursuant
to legal process”).
Moreover, applying the third Carey
priniciple strongly suggests that all injuries
proximately caused by a Fourth Amendment
violation should be compensable.
It is clear that individuals may bring civil
claims for damages resulting from violations
of their Fourth Amendment rights under §
1983. See Manuel v. City of Joliet, Ill., 137 S.
Ct. 911, 914 (2017). And this Court has also
held that § 1983 damages “may include ...
out-of-pocket loss and other monetary
harms.” Memphis Cmty. Sch. Dist. v.
Stachura, 477 U.S. 299, 307 (1986). Actions
brought under § 1983 are reviewed like
common law tort claims and require a proximate cause analysis. See Heck v. Humphrey,
512 U.S. 477 (1994); Carey, 435 U.S. at
(1978); Olsen v. Correiro, 189 F.3d 52 (1st
Cir. 1999); Gierlinger v. Gleason, 160 F.3d
858 (2d Cir. 1998).
The first stage of traditional proximate
cause analysis requires the court to find that
the alleged tort is the “but for” cause, or the
cause in fact of the plaintiff’s injuries.
Paroline v. United States, 572 U.S. 434, 444
(2014). Here, in this instance, there can be no
question that, but for the defendants’ act of

16
illegally stopping Sherard Martin’s car,
Sherard Martin would not have been
arrested, prosecuted, and incarcerated. See
Hector v. Watt, 235 F.3d at 154, 162 (3d Cir.
2000), as amended (Jan. 26, 2001)(Nygaard,
J., concurring).
The next step is to determine if there was
not only cause in fact, but proximate cause.
Proximate cause is often explicated in terms
of foreseeability or the scope of the risk
created by the predicate conduct. See, e.g.,
ibid.; 1 Restatement (Third) of Torts: Liability
for Physical and Emotional Harm § 29, p. 493
(2005) (hereinafter Restatement). A requirement of proximate cause thus serves, inter
alia, to preclude liability in situations where
the causal link between conduct and result is
so attenuated that the consequence is more
aptly described as mere fortuity. Exxon Co.,
U.S.A. v. Sofec, Inc., 517 U.S. 830, 838–839
(1996).
In this case, defendants could reasonably
forsee that, as the result of their illegal stop
of Sherard Martin’s car, contraband would be
discovered, and Martin would be arrested,
prosecuted, and imprisoned. After all, a
major motivation for police stops of motor
vehicles is to uncover contraband. Indeed,

17
“In today's society, where illegal
drug activity is readily known and
commonplace in urban, suburban,
and ex-urban communities, and
the pursuit by law enforcement
authorities of this activity is not
only expected but demanded by
the public, to consider the acts of a
prosecutor and trial court as “independent judgment” in the prosecution of one arrested under similar
circumstances to the plaintiff may
not be realistic. A reasonable
observer may readily expect that
plaintiff would be prosecuted arising from his arrest after defendant's search and seizure.2 Rather
than the acts of a prosecutor and
judge being con-sidered interveneing independent causes which
interrupted or destroyed the causal connection between the wrongful act and injury to the plaintiff,
it appears to the Court such subsequent acts were reasonably
foreseeable by the officer. A tortfeasor is not relieved from liability
for his wrongful conduct by the
intervention of third persons if

these
acts
foreseeable.”

18
were

reasonably

Carter v. Georgevich, 78 F. Supp. 2d 332, 335
(D.N.J. 2000) abrogated by Hector v. Watt,
235 F.3d 154 (3d Cir. 2000).
This court should, therefore, grant the
petition for writ of certiorari.
II:
THIS COURT SHOULD RESOLVE, THE
ENTRENCHED, DEEPENING CIRCUIT
CONFLICT REGARDING THE PROPER
MEASURE OF DAMAGES FOR FOURTH
AMENDMENT VIOLATIONS
As the Seventh Circuit below acknowledged, there is a deep and longstanding split
between those cases which hold that there
can be no recovery for an illegal stop, arrest,
or search following the discovery of illegal
contraband, see Townes v. City of New York,
176 F.3d 138, 148 (2d Cir. 1999); Hector v.
Watt, 235 F.3d 154, 155–59 (3d Cir. 2000)
and those that hold that a plaintiff is entitled
to all damages proximately caused by the
constitutional violation, see Borunda v.
Richmond, 885 F.2d 1384 (9th Cir. 1988);
Train v. City of Albuquerque, 629 F. Supp.2d

19
1243 (D.N.M. 2009). (App. A, 14). Cf. Kerr v.
City of Chicago, 424 F.2d 1134 (7th Cir.
1970)(a “plaintiff in a civil rights action
should be allowed to recover attorneys’s fees
in a state criminal action where the expenditure is a foreseeable result of the acts of the
defendant”).
To understand the origins of this split and
its consequences it is necessary to examine
the history in detail.
In Kerr, the plaintiff filed a civil suit,
alleging a number of constitutional violations,
including:
“that for approximately 27 hours
he was never brought before a
judge, court or magistrate although in session; not charged
with a crime; not permitted to
make bail or bond; not permitted
to contact or obtain counsel and
advice; not informed of any formal
charges; not informed of his privilege against self-incrimi-nation;
not informed of his right to the
advice of counsel; and that for 14
hours he was not permitted to eat
or
use
washroom
facilities.
Additionally, Kerr alleges that he
was physically abused and the

20
confession was not voluntarily
obtained; and that the polygraph
test was taken without his or his
parents' consent.”
Kerr, 424 F.2d at 1137.
It should be noted that although the
principal claim in Kerr, was violation of the
Fifth Amendment, the Seventh Circuit also
held that the jury should have been
instructed that an arrest without an warrant
and without probable cause violated due
process. 424 F.2d at 1140.
The Seventh Circuit held that the jury
should have been allowed to hear that
plaintiff’s parents had had to pay attorneys’
fees which were expended on his behalf
during the course of the criminal prosecution:
“A plaintiff in a civil rights action should be
allowed to recover the attorneys' fees in a
state criminal action where the expenditure
is a foreseeable result of the acts of the
defendant.”
424 F.2d at 1141.
Following Kerr, and citing Kerr, the Ninth
Circuit held definitively that in the case of a
fourth amendment violation, a plaintiff was
entitled to recover for attorneys’ fees incurred
as the result of defending the ensuing
criminal prosecution. Borunda v. Richmond,

21
885 F.2d 1384, 1390 (9th Cir. 1988). But the
Borunda court, like the Kerr court used
general language which went beyond the
issue of attorneys’ fees:
“A plaintiff who establishes
liability
for
deprivations
of
constitutional rights actionable
under 42 U.S.C. § 1983 is entitled
to recover compensatory damages
for all injuries suffered as a
consequence of those deprivations.
Such damages are calculated in
most circumstances according to
general tort law principles applicable to the types of deprivations
proved. See generally Carey v.
Piphus, 435 U.S. 247, 98 S.Ct.
1042, 55 L.Ed.2d 252 (1978). The
victim of the constitutional deprivation is entitled to compensation
for economic harm, pain and suffering, and mental and emotional
distress that results from the
violations. See id. at 257–64, 98
S.Ct. at 1048–53.”
Borunda, 885 F.2d at 1389.
The Borunda court also rejected the
argument that a prosecutor’s decision to
pursue criminal charge, based upon his own

22
assessment of probable cause, broke the
causal chain between the defendants’ conduct
and the plaintiff’s damages, noting that the
presumption that a prosecutor acted independently may be rebuttable by evidence that
the investigating officers made “material
omissions or gave false information to the
prosecutor.” Borunda, 885 F.2d at 1390.
This is where the law stood until, eleven
years later, the Second Circuit decided the
case of Townes v. City of New York, 176 F.3d
138 (2d Cir. 1999). In the case of Townes,
plaintiff was arrested after police illegally
searched a taxicab in which he was a passenger. He was charged with possession of
contraband found in the cab. His motion to
suppress the evidence was denied at the trial
court level and he pled guilty but his conviction was reversed on appeal and the motion
to suppress was eventually granted, resulting
in the dismissal of the indictment. 176 F.3d
at 142.
The Townes court ruled that plaintiff was
not entitled to damages for his incarceration
for two separate reasons.
First, the Townes court held that the illegal
search was not the proximate cause of plaintiff’s imprisonment because the state trial
court's exercise of independent judgment in

23
deciding not to suppress the evidence, though
later ruled to be erroneous, broke the chain of
causation for purposes of section 1983
liability. 176 F.3d at 147. This holding, which
does not apply here (where the trial court
granted Sherard Martin’s motion to suppress)
was consistent with Borunda.
However, the Townes went much further
(perhaps unnecessarily further) to hold that
plaintiff’s Fourth Amendment right to be free
from unreasonable searches and seizures
“does not fit the damages he seeks (compensation for his conviction and incarceration).”
176 F.3d at 147.
The Townes court concluded:
No Fourth Amendment value
would be served if Townes, who
illegally possessed firearms and
narcotics,6 reaps the financial benefit he seeks. Townes has already
reaped an enormous benefit by
reason of the illegal seizure and
search to which he was subjected:
his freedom, achieved by the
suppression of evidence obtained
in violation of the Fourth Amendment. That benefit to Townes is
merely incidental to the purpose of
suppression, which is to compel

24
law enforcement compliance with
the Fourth Amendment and
thereby prevent the invasions of
law-abiding citizens' privacy. See
United States v. Calandra, 414
U.S. 338, 347, 94 S.Ct. 613, 619–
20, 38 L.Ed.2d 561 (1974); see
also United States v. Peltier, 422
U.S. 531, 536–39, 95 S.Ct. 2313,
2317–18, 45 L.Ed.2d 374 (1975).
Now Townes seeks damages to
compensate him for his conviction
and time served, on top of the
benefit he enjoys as a result of the
suppression. That remedy would
vastly overdeter police officers and
would result in a wealth transfer
that “is peculiar, if not perverse.”
Jeffries, supra, at 1475.
176 F.3d at 148.
One year later, two judges of a panel of the
Third Circuit agreed with Townes that, as a
general matter, a plaintiff who alleged a
Fourth Amendment violation which uncovered contraband could not recover for attorneys fees and other expenses incurred in the
course of an ensuing criminal proceedings.
Hector v. Watt, 235 F.3d 154, 155-60 (3d Cir.
2000), as amended (Jan. 26, 2001). One judge,

25
however, concurred on the basis of the first
Townes rationale, that the causal chain had
been broken by the magi-strate who issued a
search warrant before the officers recovered
the contraband. Hector, 235 F.3d at 163
(Nygaard, J., concurring).
However, before the Seventh Circuit
recently weighed in, a district court in the
Tenth Circuit ruled, contra to Townes and
Watts that post-indictment damages were
recoverable in a Section 1983 action, even
where
the
illegal
search
uncovered
contraband:
“The recovery should be guided by
common-law
tort
principles—
including principles of causation—
and tailored to the interests that
the Tenth Circuit has stated the
Fourth
Amendment
protects.
Those interests include liberty,
property, and privacy interests—a
person's sense of security and
individual dignity. In appropriate
circumstances, such damages may
include damages flowing from
post-indictment legal process, such
as costs incurred in defending
against charges brought as a
result of an unlawful search,

26
losses incurred because of incarceration while defending against
the charges, and appropriate emotional distress damages.”
Train v. City of Albuquerque, 629 F. Supp. 2d
1243, 1251 (D.N.M. 2009).
The Train court went on to reason that:
“Given the Tenth Circuit's statement on the interests that the
Fourth Amendment protects, the
rules governing damages available
in a § 1983 suit alleging a Fourth–
Amendment violation should be
tailored to protecting an individual's liberty, property, pri-vacy,
and sense of security and individual dignity. The Third Circuit, in
discussing the liberty interests at
stake in a Fourth Amendment
violation, mentioned only
privacy.
See Hector v. Watt, 235
F.3d at 157 (“The evil of an unreasonable search or seizure is
that it invades privacy, not that it
uncovers crime, which is no evil at
all.”) (citations and internal quotation marks omitted). The Tenth
Circuit does not take such a
narrow view of the Fourth Amend-

27
ment. According to the Tenth
Circuit's guidance on the Fourth
Amendment, any damage award
available for a Fourth–Amendment violation under 42 U.S.C. §
1983 should be tailored to compensating losses of liberty, property,
privacy, and a person's sense of
security and individual dignity.
While it may not be an evil to
uncover crime, the drafters obviously did not think uncovering
crime was a higher value than
protecting and securing a person's
home from unreasonable searches.
Federal criminal charges, federal
detention, and all of the negative
consequences of those charges and
attendant to federal custody implicated Train's interest in liberty
and his sense of security and
individual dignity. That imprisonment occasioned economic losses.
Such losses should be compensable, given that they implicate the
interests that the Tenth Circuit
has explained the
Fourth Amendment protects.”

28

Train v. City of Albuquerque, 629 F. Supp. 2d
1243, 1252 (D.N.M. 2009).
This deepening and obvious split between
these two irreconcilable views of damages for
Fourth Amendment violations is ripe for this
Court’s review. The petition for writ of
certiorari should be granted.
CONCLUSION
For the foregoing reasons, the petition for
writ of certiorari should be granted.
Respectfully submitted,
SHERARD MARTIN
Dated: December 9, 2019
By:

s/_Stephen L. Richards
Stephen L. Richards

53 West Jackson Suite 756
Chicago, IL 60604
773-817-6927
Sricha5461@aol.com
Joshua S.M. Richards

29
53 West Jackson Suite 756
Chicago, IL 60604

30
APPENDIX INDEX
APPENDIX A
September 13, 2019, United States
Court of Appeals for the Seventh Circuit
denied Rehearing and Rehearng en Banc,
Case No. 17-2667, circuit judges
Ripple, Kanne, and Rovner……………App.1
APPENDIX B
August 12, 2019 (Opinion of the United
States Court of Appeals for the Seventh
Circuit) Appeal Denied, Case No. 17-2667,
circuit judges Ripple, Kanne, and Rovner
……………………………………………..App.3
APPENDIX C
January 5, 2017 (Memorandum Opinion
and Order United States District Court for
the Northern District of Illinois, Case No.
15-CV-04576 per St. Eve, Judge.)…....App.37

App. 1
APPENDIX A
UNITED STATES COURT OF APPEALS,
For The Seventh Circuit
Chicago, Illinois, 60604
September 13, 2019
Before
KENNETH F. RIPPLE, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
No. 17-2667
SHERARD MARTIN,
Appeal from the
Plaintiff-Appellant , United States
District Court
v.
for the Northern
District of
DAVIS MARINEZ, ET AL., Illinois, Eastern
Defendants-Appellees, Division
No. 1:15-cv-04576
Amy J. St. Eve, Judge.

App. 2
ORDER
No judge of the court having called for
vote+ on the Petition for rehearing and Rehearing En Banc, filed by Plaintiff-Appellant
on August 26, 2019, and all of the judges on
the original panel having voted to deny the
same,
IT IS HEREBY ORDERED that the
Petition for Rehearing and Rehearing
En Banc is DENIED.

Judge Amy J. St. Eve did not participate in the consideration
of this petition.
+

App. 3
APPENDIX B
IN THE
UNITED STATES COURT OF APPEALS,
SEVENTH CIRCUIT
________________
SHERARD MARTIN, PLAINTIFFAPPELLANT
v.
DAVIS MARINEZ, ET AL., DEFENDANTSAPPELLEES
______________
[No. 17-2667]
______________
Appeal from the United States District Court
for the Northern District of Illinois, Eastern
Division.
No. 15-CV-04576 – Amy J. St. Eve, Judge.
______________
Argued November 2, 2018
Decided August 12, 2019
______________
Before KIPPLE, KANNE, and ROVNER,

App. 4

Circuit Judges,
Rovner, Circuit Judge.
Sherad Martin
appeals the district court’s grant of partial
summary judgment, Fed. R. Civ. P. 56, on his
suit under 42 U.S.C. § 1983 against the City
of Chicago and several of its police officers for
false arrest and unlawful search. Martin’s
suit proceeded to trial, where a jury awarded
him $1.00 in damages after finding that two
of the defendants
Page 2
lacked reasonable suspicion or probable cause
to detain him. The jury found against Martin
and in favor of the officers on the remainder
of his claims. Martin appeals, challenging
only the district court’s pretrial grant of
partial summary judgment to the defendants,
which limited the damages Martin could seek
at trial. We affirm.
I.
Martin’s suit arises from a traffic stop in
May 2013. We recount the facts surrounding
the stop and subsequent events in the light
most favorable to Martin, noting disputed
facts where relevant and viewing the facts on

App. 5
which the jury reached a verdict in the light
most favorable to the verdict. On the evening
of May 24, 2013, Martin was driving in
Chicago when Officers Davis Marinez and
Sofia Gonzalez pulled him over. According to
Martin, he had not committed any traffic
violations when the officers stopped him,
although the officers claim they initiated the
stop because Martin’s tail and brake lights
were not working. When Officer Gonzalez
approached the car and asked Martin for his
license and insurance, Martin explained that
he did not have his driver’s license because it
had been “taken for a ticket.” At that point
both officers asked Martin to step out of the
car as the other defendants, Officers
Armando Chagoya and Elvis Turcinovic,
arrived on the scene.
According to Martin, the officers forced him
from the car, conducted a pat-down search,
handcuffed him, and put him into a police
car. At that point, they searched his car,
where
Page 3
they recovered a 9 mm semiautomatic
handgun with a defaced serial number, and a

App. 6
plastic baggie of crack cocaine.1
Officers then took Martin into custody. At
the police station, Officer Marinez learned
that Martin had previously been convicted of
first-degree murder and unlawful use of a
weapon by a convicted felon. Ultimately
Martin was transferred to Cook County Jail
and charged with four Illinois felonies: (i)
being an armed habitual criminal in violation
of 720 ILCS § 5/24-1.7; (ii) being a felon in
possession of a firearm in violation of 720
ILCS § 5/24-1.1; (iii) possessing a firearm
with a defaced serial number in violation
of 720 ILCS § 5/24-5(b); and possessing
cocaine in violation of 720 ILCS § 570/402. He
also received traffic citations under Chicago
Municipal Code Section 9-76-050 (taillight
operation) and 625 ILCS § 5/6-112 (outlining
requirement to carry a driver’s license). Id.
Martin spent sixty-five days—from May 24
through July 29, 2013—incarcerated in
connection with the charges resulting from
the traffic stop. On July 29th, a different court
In the officers’ version of events, they spotted a handgun
between Martin’s legs as he stepped out of his car and placed
him immediately into custody. Officer Chagoya claims to have
found the plastic baggie of crack cocaine as well as $400 when
he searched the car prior to having it impounded.
1

App. 7
revoked Martin’s bond when he was convicted
in an unrelated criminal case. During the
course of the criminal proceedings for the
felony charges arising from the traffic stop,
Martin filed a motion to suppress the
evidence, which the trial court granted on
November 7, 2013. The state then dismissed
the charges against Martin through a nolle
prosequi motion.
Page 4
Martin filed this suit in federal court
under 42 U.S.C. § 1983 against all of the
officers involved in the stop as well as the
City
of
Chicago
(on
a respondeat
superior theory of liability), seeking money
damages for violations of his Fourth
Amendment rights. Martin sought civil
damages totaling $110,500: $1,000 per day of
his 65-day incarceration and $45,500 in lost
business income—calculated at $700 per
day—from his automobile dealership.
Before trial, the defendants moved for
partial summary judgment, arguing that
even if the stop was unlawful, once the
officers saw the handgun and cocaine, they
had probable cause for Martin’s arrest, which
limited Martin’s damages to the short period
between his stop and his arrest. The district

App. 8
court agreed, granting the defendants’ motion
for partial summary judgment and concludeing that although Martin’s § 1983 case could
proceed as to the initial stop of his car and
seizure of his person—before the defendants
discovered the illegal gun and cocaine—he
could not seek damages for conduct postdating the discovery of contraband, including
his 65-day incarceration.
Martin’s case proceeded to a jury trial,
limited as described above by the grant of
partial summary judgment. At trial, the facts
largely tracked those described above, with
the same basic areas of conflicting testimony:
(1) Martin testified that his tail and brake
lights were both functioning when he was
stopped; (2) he also testified that he handed
Officer Gonzalez his traffic ticket when he
was unable to produce his license; and (3)
Martin maintained that the handgun was
under the driver’s seat, as opposed to on it
and visible when he stepped out of the car as
directed by Officers Gonzalez and Marinez.
Page 5
The district court instructed the jury to
decide the following Fourth Amendment
questions:
(1)
whether
the
officers
“unlawfully seized” Martin without reason-

App. 9
able suspicion to support a traffic stop; (2)
whether they falsely arrested him without
probable cause; or (3) whether they
unlawfully searched his person or car without
probable cause. The court also instructed the
jury that if they found that Martin proved his
claims, they could not award him damages for
any time spent in custody after officers found
the handgun, and should limit their consideration to the period of detention beginning
with his traffic stop and ending when they
found the gun. The jury found in favor of
Martin and against Officers Marinez and
Gonzalez on the unlawful seizure claim and
awarded him $1.00 in compensatory
damages. On that same claim, they found in
favor of Officers Chagoya and Turcinovic, and
on the remaining claims for false arrest and
unlawful search, they found against Martin
and in favor of all four officers.
Martin now appeals from the district
court’s grant of partial summary judgment
before trial limiting the scope of damages
available.
II.
We review the district court’s grant of

App. 10
summary judgment de novo, considering the
record in the light most favorable to Martin
and construing all reasonable inferences from
the evidence in his favor. E.g. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255, 106
S.Ct. 2505, 91 L.Ed.2d 202 (1986); Tolliver v.
City of Chicago, 820 F.3d 237, 241 (7th Cir.
2016). Summary judgment is appropriate
when there are no genuine disputes of
material fact and the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P.
56(a). As
Page 6
for those issues presented to the jury, we
view the evidence in the light most favorable
to its verdict. Matthews v. Wis. Energy Corp.,
Inc., 642 F.3d 565, 567 (7th Cir. 2011).
Martin challenges only the district court’s
grant of partial summary judgment before
trial. He does not dispute the jury’s verdict in
his favor as to the initial traffic stop and
against him on all of his remaining claims.
His appeal thus raises the narrow issue of
what type of damages he can recover as a
result of his unlawful seizure by Officers
Marinez and Gonzalez. In considering this
issue, we are mindful of the jury’s verdict
rejecting Martin’s false arrest claim as well

App. 11
as his claim for unlawful search based on the
officers’ search of his vehicle. We thus consider solely whether Martin’s initial unconstitutional seizure can support his claim for
damages arising from losses from his subsequent incarceration on the weapon and drug
charges.
Martin argues that the district court
erroneously based its conclusion that he was
barred from collecting damages from his
wrongful incarceration on the premise that
a § 1983 claimant may not recover damages
as a result of the “fruit of the poisonous tree”
doctrine. According to Martin, when
assessing available damages under § 1983,
we should begin by asking whether the
plaintiff’s alleged damages were proximately
caused by the constitutional violation. From
that starting point, Martin maintains that he
is, at the very least, entitled to have a jury
decide whether his incarceration and any
consequential damages arising from it were
proximately caused by the unconstitutional
stop.
Page 7
The “basic purpose” of damages under §
1983 is to “compensate persons for injuries
that are caused by the deprivation of

App. 12
constitutional rights.” Carey v. Piphus, 435
U.S. 247, 254, 98 S.Ct. 1042, 55 L.Ed.2d 252
(1978); see also Memphis v. Cmty. Sch.
District v. Stachura, 477 U.S. 299, 306, 106
S.Ct. 2537, 91 L.Ed.2d 249 (1986). The
Supreme Court has “repeatedly noted that 42
U.S.C. § 1983 creates a species of tort liability.” Heck v. Humphrey, 512 U.S. 477, 483,
114 S.Ct. 2364, 129 L.Ed.2d 383 (1994)
(quoting Stachura, 477 U.S. at 305, 106 S.Ct.
2537)(internal quotation marks omitted)).
Thus, the appropriate starting place for the
damages inquiry under § 1983 is the common
law of torts. Carey, 435 U.S. at 253, 98 S.Ct.
1042.
Using the available common-law torts as a
starting point, Martin’s damages claim
immediately runs into trouble. His complaint
asserts claims for “false arrest” as well as
“unlawful search” arising from the defendants’ violation of his Fourth Amendment
right to be free from “unreasonable searches
and seizures,” U.S. Const. Amend. IV. But a
claim for false arrest cannot succeed because
it is undisputed that officers discovered an
illegal handgun and cocaine in Martin’s
vehicle, which gave them probable cause for
his arrest, notwithstanding the previous

App. 13
stop. See Holmes v. Village of
Hoffman Estates, 511 F.3d 673, 679 (7th Cir.
2007) (“A police officer has probable cause to
arrest an individual when the facts and
circumstances that are known to him reasonably support a belief that the individual has
committed, is committing, or is about to ...
commit a crime.”). Given this, Martin’s claim
runs headlong into the rule that if an “officer
had probable cause to believe that the person
he arrested was involved in criminal activity,
then a Fourth Amendment claim for false
arrest is foreclosed.” Id. at 679–80; Morfin v.
City of East Chicago, 349 F.3d 989, 997 (7th
Cir. 2003) (collecting cases);
see also
Maniscalco v. Simon,
Page 8
712
F.3d
1139,
1143
(7th
Cir.
2013) (“Probable cause is an absolute bar to a
claim of false arrest asserted under the
Fourth Amendment and section 1983”) (quoting Stokes v. Bd. of Educ., 599 F.3d 617, 622
(7th Cir. 2010)). Moreover, the fact that the
evidence was the fruit of an illegal detention
does not make it any less relevant to
establishing probable cause for the arrest
because the exclusionary rule does not apply
in a civil suit under § 1983 against police
unlawful

App. 14
officers. See Vaughn
v. Chapman, 662
Fed.Appx. 464, 465 (7th Cir.2016) 2016)
(unpublished order); see also Lingo v. City of
Salem, 832 F.3d 953, 958–59 (9th Cir.
2016); Black v. Wigington, 811 F.3d 1259,
1267–68 (11th Cir. 2016); Townes v. City of
New York, 176 F.3d 138, 145 (2d Cir.
1999); Wren v. Towe, 130 F.3d 1154, 1158
(5th Cir. 1997). And although Martin’s
complaint is limited to claims for false arrest
and unlawful search, it bears noting that the
existence of probable cause for the arrest
would also bar recovery on a theory of
malicious prosecution. See Stewart v. Sonneborn, 98 U.S. 187, 194, 25 L.Ed. 116 (1878)
(“The existence of a want of probable cause is,
as we have seen, essential to every suit for a
malicious prosecution.”); Thompson v. City of
Chicago, 722 F.3d 963, 969 (7th Cir. 2013)
(noting that malicious prosecution claim
under Illinois law requires proof that underlying criminal proceeding concluded in manner indicating innocence).
Ignoring the insurmountable hurdles to his
claim presented by possible tort law analogs,
Martin insists that he is entitled to damages
for his incarceration solely on a theory of
proximate cause—under the general rule

App. 15
of Carey that a damages award under § 1983
should compensate for what Martin characterizes as any injuries arising as a result of a
constitutional deprivation. Although the
district court considered Martin’s claim that
Page 9
his entitlement to damages for post-arrest
incarceration should be resolved using a
proximate cause analysis, after reviewing the
cases Martin cited, the court deemed such an
approach unnecessary in light of its conclusion that the existence of probable cause
after the initial detention foreclosed any further damages.
Citing Carey, Martin points out that he
should not be barred from recovering §
1983 damages simply because recovery would
not be permitted under a common-law tort
such as false arrest. As the Court explained
in Carey, “the interests protected by a particular constitutional right may not also be
protected by an analogous branch of the
common law torts.” Carey, 435 U.S. at 258, 98
S.Ct. 1042. Thus, the Court recognized that
although the common law elements of damages and the prerequisites for their recovery
are the appropriate “start-ing point for the
inquiry under § 1983,” those common-law tort

App. 16
theories may not “provide a complete solution
to the damages issues in every § 1983
case.” Id. at 258, 98 S.Ct. 1042. The Court
accordingly set out an approach to handling
those situations where the common-law tort
theories would not allow recovery but there
were constitutional interests implicated that
might nonetheless warrant redress when
violated. Carey explained that “to further the
purpose of § 1983, the rules governing compensation for injuries caused by the deprivation of constitutional rights should be tailored
to the interest protected by the particular
right in question—just as the common-law
rules of damages themselves were defined by
the interests protected in the various
branches of tort law.” Id. at 258–59, 98 S.Ct.
1042. Under that rationale, we must
determine whether the post-arrest damages
Page 10
for incarceration Martin seeks would effectively redress the interests the Fourth Amendment is intended to protect.
We have not resolved the specific question
whether a plaintiff may recover damages for
post-arrest incarceration following a Fourth
Amendment violation when probable cause
supported the ultimate arrest and initiation

App. 17
of criminal proceedings, but the application of
the exclusionary rule spared the plaintiff
from the criminal prosecution. As Martin
notes, there is a split of authority on the
question of whether a defendant whose
Fourth or Fifth Amendment rights have been
violated can recover damages for incarceration, legal defense fees, or emotional distress
in a subsequent civil suit under § 1983.
Compare Townes v. City of New York, 176
F.3d 138, 148 (2d Cir. 1999) (no damages for
costs associated with defending against gun
possession charges when evidence for charges
arose from unlawful search); Hector v. Watt,
235 F.3d 154, 155–59 (3d Cir. 2000)(no
damages for costs incurred in criminal
prosecution for drug possession charges
arising from unconstitutional search) with
Borunda v. Richmond, 885 F.2d 1384, 1389–
90 (9th Cir. 1988) (allowing admission of
acquittal of criminal charges in plaintiffs’
subsequent § 1983 suit to recover money
spent on attorneys’ fees defending criminal
charges); see also Train v. City of Albuquerque, 629 F. Supp.2d 1243, 1255 (D.N.M.
2009) (allowing jury to determine whether
unlawful search that led to gun possession
charges
proximately
caused
plaintiff’s

App. 18
criminal defense costs, loss of income, and
emotional distress damages).
Martin, however, insists that in Kerr v.
City of Chicago, 424 F.2d 1134 (7th Cir.
1970), we held that such damages are
recoverable and that here the district court
was obligated
Page 11
under Kerr to allow his damages claim. The
district court re-jected Kerr as controlling
here given “factual differences” and case law
developments since it was “decided nearly 47
years ago.” (Appellant’s App. at A-14.)
Like the district court, we reject Martin’s
claim that Kerr is dispositive on the question
of allowable damages. Martin relies almost
exclusively on a sentence from Kerr stating
without further explanation that “[a] plaintiff
in a civil rights action should be allowed to
recover the attorneys’ fees in a state criminal
action where the expenditure is a foreseeable
result of the acts of the defendant.” Kerr, 424
F.2d at 1141. The minor plaintiff in Kerr
alleged that Chicago police had violated his
Fifth Amendment constitutional rights by
using physical force to obtain an involuntary
confession, which was used to detain him for
18 months awaiting and during trial, when a

App. 19
nolle prosequi was entered after the jury was
unable to reach a verdict. Kerr, 424 F.2d at
1136–37. The precise issue in Kerr was thus
whether the plaintiff should have been
allowed to present evidence in his civil case of
attorneys’ fees expended in his underlying
criminal case, which hinged entirely on his
involuntary confession. Id. at 1141.
So although in the abstract Kerr stands for
the proposition that foreseeable damages
arising from a constitutional violation may be
recovered, it sheds no light on the precise
question Martin’s appeal poses.2 Using the
The same is true for a much more recent case from our circuit
cited by Martin in his reply brief, Johnson v. Winstead, 900
F.3d 428 (7th Cir. 2018). Martin characterizes Johnson as
holding that damages could be recovered for incarceration
subsequent to a failure to provide Miranda warnings, despite
the fact that a failure to provide such warnings is itself not a
violation of the Fifth Amendment right against selfincrimination. But Martin misreads Johnson, which specifies
that an actual Fifth Amendment violation occurs only when the
information acquired without Miranda warnings is introduced
at trial to secure a criminal conviction. Martin claims Johnson
would allow damages based on a violation of a prophylactic
rule–the failure to give Miranda warnings itself—but he
misreads Johnson. The damages Johnson contemplates would
be those arising from incarceration for the actual Fifth
Amendment violation of admitting the statements at trial to
secure a criminal conviction, not, as Martin suggests, for a
violation of a prophylactic rule. Id. at 434–35.
2

App. 20
framework of Carey, it is easy
Page 12
to see that the interest protected by the Fifth
Amendment right against self-incrimination
was directly implicated by the coerced confession and resulting criminal trial. Kerr is thus
entirely in keeping with Carey in the sense
that the damages sought—expenses of
defending the criminal trial prosecuted on the
strength of the involuntary confession—arise
directly from the constitutional violation and
redress the precise interest the Fifth
Amendment protects: the right not to be
compelled in a criminal case to be a witness
against oneself. Simply put, nothing
in Kerr sheds any light on Martin’s claim
that he is entitled to pursue damages for his
post-arrest incarceration.
That leaves us with the handful of
appellate courts that have considered the
specific issue of the proper scope of civil
damages for damages following an illegal
search or seizure. In Townes, the Second
Circuit considered whether to award compensatory damages in a § 1983 civil suit after
police stopped a taxi without probable cause
and discovered an illegal firearm and cocaine.
The plaintiff’s motion to suppress

App. 21
Page 13
the firearm was initially denied, and he was
convicted of unlawful possession of a firearm
by a felon. Over two years later, the state
appellate division reversed the conviction on
the grounds that police had lacked probable
cause to stop and search the taxicab. In his
subsequent civil suit, the Townes plaintiff
sought to recover compensatory damages
arising
from
his
conviction
and
incarceration. Id. at 149.
Citing Carey, the panel in Townes rejected
the plaintiff’s damages claim. After ruling out
recovery under any common-law tort theories,
the Second Circuit also rejected proximate
cause as a possible basis for recovery. In
doing so, the court noted that “the chain on
causation between a police officer’s unlawful
arrest and a subsequent conviction and
incarceration is broken by the intervening
exercise
of
independent
judgment”—
specifically, the trial court’s failure to
suppress the incriminating evidence before
trial. Id. at 147. In an attempt to distinguish Townes, Martin seizes this causation
analysis, but ignores the rest of the holding
in Townes, which would squarely foreclose
Martin’s claim.

App. 22
In addition to concluding that the trial
court’s refusal to suppress the evidence of the
unlawful search was an intervening and
superseding cause of the conviction, the
Second Circuit noted that the plaintiff was
“foreclosed from recovery for a second, independent reason: the injury he pleads (a
violation of his Fourth Amendment right to
be free from unreasonable searches and seizures) does not fit the damages he seeks
(compensation for his conviction and incarceration).” Id. Bearing in mind the Supreme
Court’s directive in Carey to tailor § 1983
liability to match the affected constitutional
rights,
Page 14
see Carey, 435 U.S. at 258, 98 S.Ct.
1042, Townes pointed out a “gross disconnect”
between the constitutional violation (the
Fourth Amendment right to be free from
unreasonable searches and seizures) and the
injury for which recovery was sought (the
subsequent
conviction
and
incarceration). Townes, 176 F.3d at 148. As the panel
in Townes observed, “[t]he evil of an unreasonable search or seizure is that it invades
privacy, not that it uncovers crime, which is
no evil at all.” Id.

App. 23

Townes thus

reasoned that to award
damages for a conviction and incarceration
that followed an illegal search would
be tantamount to awarding a windfall benefit
in that the plaintiff “already reaped an
enormous benefit by reason of the illegal
seizure and search to which he was subjected:
his freedom, achieved by the suppression of
evidence obtained in violation of the Fourth
Amendment.” Id.; cf. United
States
v.
Calandra, 414 U.S. 338, 347, 94 S.Ct. 613, 38
L.Ed.2d 561 (1974) (“The purpose of the
exclusionary rule is not to redress the injury
to the privacy of the search victim ...
[i]nstead, the rule’s prime purpose is to deter
future unlawful police conduct and thereby
effectuate the guarantee of the Fourth
Amendment against unreasonable searches
and seizures[.]”). The district court found the
rationale of Townes persuasive and noted
that it had been cited repeatedly by district
courts in our circuit assessing civil damages
for Fourth Amendment
violations.
See
Cannon v. Christopher, No. 1:06-CV-267,
2007 WL 2609893, at *4 (“Several federal
courts in the Seventh Circuit have adopted
the Townes principle and applied it to dismiss
cases where probable cause existed despite an

App. 24
allegation of an improper initial stop and
search.”); see also Williams v. Carroll, No. 08
C 4169, 2010 WL 5463362, at *4–5 (N.D. Ill.
Dec. 29, 2010) (collecting cases and observing
that
Page15
although “holding of Townes has not been
expressly adopted here in the Seventh Circuit, it has not been meaningfully challenged
in this (or any other) circuit. On the other
hand, it has been relied upon in numerous
district court opinions.”).
The following year, the Third Circuit
reached a similar conclusion in Hector v.
Watt, supra.In Hector, the plaintiff brought
a § 1983 suit to recover compensation for
expenses incurred during his criminal prosecution based on 80 pounds of hallucinogenic
mushrooms seized from his airplane. Like
Martin, the plaintiff had successfully litigated a suppression motion for the seized
drugs and the prosecution against him was
dismissed.
The Third Circuit first concluded, as we did
above, that existing common-law torts could
not provide the basis for the requested
damages. Hector, 235 F.3d at 156 (“Given the
Supreme Court’s mandate that we look to

App. 25
similar common-law causes of action, Hector
appears to be on the horns of a dilemma. If
his claim is categorized as being like false
arrest, then his claim fails because false
arrest does not permit damages incurred
after an indictment, excluding all the
damages he seeks. But if his claim is treated
as resembling malicious prosecution, then he
would face the problem that a plaintiff
claiming malicious prosecution must be innocent of the crime charged in the underlying
prosecution.”)
In rejecting proximate cause as a theory for
recovery, the Third Circuit, like the Second
Circuit in Townes, concluded that the policy
reasons behind the exclusionary rule would
not be served by allowing the plaintiff to
“continue to benefit from the exclusionary
rule in his § 1983 suit and be relieved of
defense
Page 16
costs from a prosecution that was terminated
only because of the exclusionary rule.” Id. at
158. Specifically, the court in Hector carefully
considered the competing policy concerns that
might be served by allowing damages arising
from defending a criminal proceeding triggered by the discovery of contraband via an

App. 26
unconstitutional search. Bearing in mind the
goal of the exclusionary rule to deter Fourth
Amendment violations, the court concluded
that policy considerations militated against
any incremental contribution to such
deterrence that might be had by allowing for
civil damages arising well after the initial
constitutional privacy violation that led to the
discovery of contraband. Id. at 159.
The court in Hector thus ultimately concluded that although there would admittedly be some deterrent value to imposing
liability for all consequences that unfold from
a search or seizure unsupported by probable
cause, the downsides of such an approach
would outweigh its benefits. Specifically, the
magnitude of the potential liability would
routinely be unrelated to the seriousness of
the underlying Fourth Amendment violation,
in the sense that the damages award would
often turn not on the nature of the unconstitutional invasion of privacy but on whatever
contraband officers happened to uncover.
Id. Noting that it would be irresponsible to
impose potential liability so disproportionate
to the underlying constitutional violation and
that neither the scholarly au-thority nor any
common-law tort supported such a theory of

App. 27
recovery, the Third Circuit concurred
with Townes to hold that, “Victims of unreasonable searches or seizures may recover damages directly related to the invasion of their
privacy–including (where appropriate) damages for physical injury, property
Page 17
damage, injury to reputation, etc.; but such
victims cannot be compensated for injuries
that result from the discovery of incriminating evidence and consequent criminal
prosecution.” Id. at 148 (quoting Townes, 176
F.3d at 148).
As Martin notes, however, the Ninth
Circuit has concluded that damages for
incarceration and legal fees arising from an
unlawful detention and search may be
recoverable in a § 1983 suit. In Borunda v.
Richmond, 885 F.2d 1384 (9th Cir. 1988), the
court rejected police officers’ appeal from a
civil damages award in favor of the plaintiffs
after a finding that the officers arrested them
without probable cause. The precise issue on
appeal was whether the district court erred
by admitting evidence that the plaintiffs had
been acquitted of the underlying criminal
charges as well as evidence of the plaintiffs’
attorneys’ fees incurred defending against the

App. 28
charges. Borunda, 885 F.2d at 1386. The
court concluded that a “plaintiff who
establishes liability for deprivations of
constitutional rights actionable under 42
U.S.C. § 1983 is entitled to recover compensatory damages for all injuries suffered as a
consequence of those deprivations.” Id. at
1389.
In Borunda, the court concluded that the
plaintiffs were entitled to recovery because
the “jury was entitled to find, amidst the
striking omissions in the police report, as well
as the two officers’ conflicting accounts of the
incident, that appellants procured the filing
of the criminal complaint by making misrepresentations to the prosecuting attorney.”
Id. at 1390. The attorneys’ fees incurred defending the criminal prosecutions were thus
directly attributable to the defendant officers’
Page 18
misconduct—i.e., falsifying information in
order to obtain a criminal complaint. Id.
Thus, while Borunda, like Kerr, may in the
abstract stand for the proposition that civil
damages may be recoverable for expenses
related to a wrongful search or arrest, nothing about Borunda’s rationale is particularly
helpful to Martin. First, in Borunda, the very

App. 29
basis for the damages award was the jury’s
finding that the defendant officers had
arrested the plaintiffs without probable cause
and had likely fabricated facts to secure a
criminal complaint against the plaitiffs. Id. at
1386–88. On the contrary, the jury here
concluded that although Officers Marinez and
Gonzalez unlawfully seized Martin without
reasonable suspicion, it found against Martin
on the claim that officers either arrested him
or searched him or his car without probable
cause. So unlike the plaintiffs in Borunda,
whose claim succeeded precisely because the
jury concluded that the defendant officers
manu-factured a tale to support probable
cause for both the arrest and subsequent
prosecutions, the jury here concluded that
probable cause existed for both Martin’s
arrest and any search of hisautomobile that
yielded contraband. The holding in Borunda
is thus a far cry from supporting the outcome
Martin seeks here. Although Martin asserts
that Borunda supports his theory that he
may recover damages under a proximate
cause analysis, Borunda adds little to the
question of foreseeability given the jury’s
finding there that the defendant officers
“procured the filing of the criminal complaint

App. 30
by making misrepresentations to the prosecuting attorney.” Id. at 1390. That finding
leads fairly uncontroversially to the conclusion that the plaintiffs’ attorney fees “incurred during the criminal prosecutions was a
direct and
Page 19
foreseeable consequence of the appellants’
unlawful conduct.” Id. Not so for Martin.
Martin’s scenario is far more like those
in Townes and Hector, where probable cause
for an arrest existed despite an encounter
that initially violated the Fourth Amendment. First, the precise relevant questions
in Borunda were evidentiary: whether the
district court had erred in admitting evidence
of the plaintiffs’ prior acquittal of the criminal charges and evidence of attorneys’ fees
spent during the criminal proceeding. Id. at
1389. And in Borunda, the court considered
the jury’s finding that the officers lacked
probable cause and concluded it was defensible in light of general tort principles of recovery; the jury’s verdict here cuts in the opposite direction given that, with the exception of
the initial traffic stop, the jury concluded that
the defendants did have probable cause for
everything that followed.

App. 31
Finally, Martin relies heavily on a case
from the District of New Mexico holding that
a plaintiff raising a constitutional claim
based on an illegal search may be permitted
to recover damages for post-indictment proceedings if the constitutional deprivation
proximately caused the damages. See generally Train v. City of Albuquerque, 629 F.
Supp.2d 1243 (D.N.M. 2009). The district
court in Train concluded that in addition to
protecting privacy, as the courts in and Hector recognized, the Fourth Amend-ment had
been described in the Tenth Circuit as
protecting “ ‘liberty, property, and privacy
interests—a person’s sense of security and
individual dignity.’ ” Id. at 1252 (quoting
Holland ex rel. Overdorff v. Harrington, 268
F.3d 1179, 1196 (10th Cir. 2001)). Believing
that the Tenth Circuit did
Page 20
not “take such a narrow view of the Fourth
Amendment”
as
the
one
advanced
in Townes and Hector, the district court
in Train concluded as follows:
According to the Tenth Circuit’s guidance on the Fourth Amendment, any
damage award available for a Fourth-

App. 32
Amendment violation under 41 U.S.C. §
1983 should be tailored to compensating
losses of liberty, property, privacy, and
a person’s sense of security and individual dignity. While it may not be an
evil to uncover crime, the drafters obviously did not think uncovering crime
was a higher value than protect-ing and
securing a person’s home from unreasonable searches. Federal criminal
charges, federal detention, and all of
the negative consequences of those
charges and attendant to federal custody implicated Train’s interest in
liberty and his sense of security and
individual dignity. That imprisonment
occasioned economic losses. Such losses
should be compensable, given that they
implicate the interests that the Tenth
Circuit has explained the Fourth
Amendment protects. Id.
Although Martin urges us to reject the logic
of both Townes and Hector in favor of that
found in Train, he fails to identify any
Seventh Circuit law urging the broad view of
interests protected by the Fourth Amendment
that drove the district court’s conclusion in
Train. Nor did Train analyze the plaintiff’s

App. 33
claim in light of common-law false arrest.
Because Martin explicitly framed his claim as
one for false arrest,
Page 21
(Pl. Compl. 1), we are bound by our own
precedent limiting dam-ages regardless of
what we might conclude under a proximate
cause analysis. See Gauger v. Hendle, 349
F.3d 354, 362–63 (7th Cir. 2003), overruled on other grounds by Wallace v. City of
Chicago, 440 F.3d 421 (7th Cir. 2006)
(citing Heck v. Humphrey, 512 U.S. 477, 484,
114 S.Ct. 2364, 129 L.Ed.2d 383 (1994))
(available damages for false arrest cover only
time of detention until issuance of process or
arraignment). And although Train ably sets
forth the competing rationale for an expansive view of both the interests protected by the
Fourth Amendment as well as damages available for their breach, the rationale in Townes
and Hector, in addition to being more widely
accepted as dis-cussed infra, is also more
applicable to the facts here.
Given the jury’s verdict against Martin on
his claims for false arrest and unlawful
search, the only Fourth Amendment injury
being redressed is the brief initial seizure
before officers asked Martin for his license.

App. 34
Allowing Martin to recover damages for his
subsequent imprisonment, set in motion by
an arrest supported by probable cause, would
amount to precisely the sort of mismatch
between the violation and the damages
that Townes and Hector sought to avoid. We
do not go so far as to hold that post-arrest
damages may neverbe recovered, only that
here such damages would be inconsistent
with the rule in Carey that damages should
be tailored to protect the right in question, 435 U.S. at 258, 98 S.Ct. 1042. Here, the
right in question is Martin’s Fourth Amendment right not to be stopped by officers
without reasonable suspicion. That right was
vindicated by the nominal damages the jury
awarded Martin.
Page 22
It is thus ultimately unnecessary to delve
into the thorny question of proximate cause.
See Hector, 235 F.3d at 161 (“Given that the
cases on intervening causes are legion and
difficult to reconcile ... and that we have
other, sufficient grounds for resolving this
case, we will not reach the issue of intervening causation.”). That said, it is worth
noting that there is no reason Martin’s claim
would fare any better under that analysis.

App. 35
Martin’s stop was certainly the but-for cause
of his imprisonment in the sense that but for
the stop officers would never have discovered
the handgun and cocaine and arrested him.
But that tells us little about whether the stop
was the proximate cause of his incarceration. See CSX Transp., Inc. v. McBride, 564
U.S. 685, 691, 131 S.Ct. 2630, 180 L.Ed.2d
637 (2011) (“The term ‘proximate cause’ is
shorthand for a concept: Injuries have countless causes, and not all should give rise to
legal liability.”). Any number of superseding,
intervening events could have broken the
chain of causation, from the discovery of the
contraband itself to the independent decision
to deny bail, which was undoubtedly predicated in part on Martin’s criminal history and
other factors unrelated to the initial stop.
Moreover, consideration of proximate cause
takes us back around to where we began:
with the observation that probable cause for
Martin’s arrest, which the jury concluded
existed shortly after Martin was pulled over,
forecloses Martin’s claim for damages from all
that followed. See Townes, 176 F.3d at
146 (recognizing that “ordinary principles of
tort causation” apply to initial stop and
search but concluding that allowing the fruit

App. 36
of the poisonous tree doctrine to “elongate the
chain of causation” would “distort basic tort
concepts of proximate causation”); accord
Williams v. Edwards, 2012 WL 983788 at *7–
8(noting the
Page 23
same). In short, the damages arising from
Martin’s incarceration are simply too
attenuated from and unrelated to the Fourth
Amendment violation he has proven: a brief
detention unsupported by probable cause or
reasonable suspicion. His damages award
was thus properly limited to the harm arising
from his unconstitutional detention before his
lawful arrest. The decision regarding those
damages was left to the jury, which
determined one dollar was the proper
amount.
III.
For the foregoing reasons, we AFFIRM the
judgment of the district court.

App. 37
APPENDIX C
[2017 WL 56633]
Case: 1:15-cv-04576 Document #: 56 Filed:
01/05/17 Page 1 of 17 PageID #:288
IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF ILLINOIS, EASTERN DIVISION
________________
SHERARD MARTIN,
Plaintiff
v.
CITY OF CHICAGO, DAVIS MARINEZ, #
15460, SOFIA GONZALEZ, # 17298,
ARMONDO CHAGOYA, # 19938, ELVIS
TURCINOVIC, # 13509
Defendants
No. 15-cv-04576

App. 38
MEMORANDUM OPINION AND ORDER
AMY J. ST. EVE, United States District
Judge
Defendants City of Chicago and Officers
Davis Marinez, Sofia Gonzalez (Arellano),
Armando Chagoya, and Elvis Turcinovic
(collectively, “Defendants”) have moved the
Court for partial summary judgment
pursuant to Federal Rule of Civil Procedure
56. (R.36). For the reasons set forth below,
the Court grants Defendants' motion.
BACKGROUND
Plaintiff Sherard Martin (“Martin”)
commenced this action under 42 U.S.C. 1983
to redress alleged constitutional violations
committed by Defendants. In particular,
Martin alleges that Defendants illegally
stopped him, falsely arrested him, and
unlawfully searched his person and his
vehicle. (R.1, Compl. ¶¶ 7-24). He brings
claims for false arrest (Count I), unlawful
search (Count II), and for respondeat
superior liability against the City of Chicago
(Count III), requesting a damage award

App. 39
“sufficient to compensate him for the injuries
he suffered,” in addition to punitive damages
and fees and costs. (Id.). Acknowledging the
existence of disputed factual issues related to
Martin’s initial stop and search claims,
Defendants now seek partial
Page 2
summary judgment on Martin’s claims
“related to their conduct after the Defendant
Officers discov-ered narcotics and an illegal
firearm in [Martin’s] possession, which
provided proba-ble cause to arrest or to
continue detaining [Martin] from that point
forward.” (R.37, Opening Br. at 2) (emphasis
added). Martin opposes the motion but does
not dispute any fact as set forth in
Defendants' Local Rule 56.1(a)(3) statement. See Petty v. City of Chicago, 754 F.3d
416, 420 (7th Cir. 2014) (“A party filing a
motion for summary judgment under Rule 56
of the Federal Rules of Civil Procedure must
file a statement of material facts as to which
the moving party contends there is no
genuine issue and that entitle the moving
party to a judgment as a matter of law”)
(citing L.R. 56.1(a)(3)). The relevant facts are
as follows.

App. 40
Around 7:00PM on May 24, 2013, Martin
was driving near the intersection of E. 90th
Street and S. Burley Avenue in Chicago,
when officers Marinez and Gonzalez pulled
him over. (R.38, Rule 56.1(a)(3) Stmt. Facts ¶
6). According to Martin, he had not committed any traffic violations prior to being pulled
over. (Id.).1 Office Gonzalez then approached
Martin’s car, requesting his driver’s license
and insurance. Martin could not produce his
license, however, stating that he “had his
license taken for a ticket.” (Id. ¶ 7). Officers
Gonzalez and Marinez then asked Martin to
step out of his car, at which point Officers
Turcinovic and Chagoya arrived. (Id. ¶ 8).
According to Martin, the police officers forced
him out of the car, handcuffed him, conducted
a pat-down search of his person, and placed
him inside a police vehicle. The officers then
searched his car. (Id. ¶ 9).2 During the search
According to Defendants, Officers Marinez and Gonzalez
pulled him over because the taillights and brake lights on his
car were not working. (Id.).
1

According to Defendants, when Martin stepped out of his car,
the officers saw a gun between his legs and immediately placed
him into custody. Officer Chagoya then searched Martin’s car
prior to im-pound, and found a plastic baggie containing crack
cocaine and $400.00. (Id.).
2

App. 41
of Martin’s car, the officers recovered a 9
Page 3
mm semiautomatic handgun and a plastic
baggie containing crack cocaine. (Id. ¶ 10). On
scene, Officer Marinez noticed that the serial
number on the handgun had been defaced.
(Id.).
After searching Martin’s car, the police
officers transported him to the station for
processing. At the police station, Officer
Marinez printed Martin’s rap sheet and discovered that he had previous convictions on
felony charges for first-degree murder and
unlawful use of a weapon by a convicted
felon.
(Id. ¶¶
11-12). Martin was
later
transferred to the Cook County Jail, and
charged with four felonies: (i) being an armed
habitual criminal in violation of 720 ILCS
5/24-1.7(a); (ii) being a convicted felon in
possession of a firearm in violation of 720
ILCS 5/24-1.1(a); (iii) being in possession of a
firearm with a defaced serial number in
violation of 720 ILCS 5/24-5(b); and (iv) being
in possession of cocaine in violation of 720
ILCS 570/402. Martin also received traffic
citations pursuant to Chicago Municipal Code
Section 9-76-050 (relating to the operation of

App. 42
taillights) and 625 ILCS 5/6-112 (relating to
the requirement to carry a driver’s license).
(Id. ¶¶ 11, 13).
Martin was incarcerated from May 24,
2013 through July 29, 2013 in connection
with his May 24, 2013 arrest. (Id. ¶
14).3 During the course of criminal proceedings, Martin filed a motion to suppress
the evidence, which the trial court granted on
November 7, 2014. (Id.). As a result, the State
dismissed the charges through a nolle
prosequi motion. (Id.). Martin now seeks
$65,000 in civil damages for his incarceration,
calculated at a rate of $1,000 per day for 65
days (May 24, 2013–July 29, 2013). He also
seeks to recover lost business income of $700
per day for 65 days—a total of $45,500—in
relation to his automobile dealership. (Id. ¶
15). Defendants argue that such damages are
not recoverable in this Section 1983 action.
Page 4
LEGAL STANDARD
Summary judgment is appropriate “if the
On July 29, 2013, a different court revoked Martin’s bond after
he was convicted in an unrelated criminal case. (Id.). He
remained incarcerated in connection with that case.
3

App. 43
movant shows that there is no genuine
dispute as to any material fact and the
movant is entitled to judgment as a matter of
law.” Fed.R.Civ.P. 56(a). A genuine dispute as
to any material fact exists if “the evidence is
such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
In determining summary judgment motions,
courts “must view the record in the light most
favorable to the non-moving party and give
the benefit of reasonable inferences to the
non-moving party.” Chaib v. Geo Grp., Inc.,
819 F.3d 337, 341 (7th Cir. 2016). After “a
properly supported motion for summary
judgment is made, the adverse party must set
forth specific facts showing that there is a
genuine issue for trial.” Anderson, 477 U.S. at
255 (quotation omitted); Life Plans, Inc. v.
Sec. Life of Denver Ins. Co., 800 F.3d 343, 349
(7th Cir. 2015).
ANALYSIS
In his false arrest claim, Martin alleges
that he “was stopped and seized without a
warrant, without probable cause, and without
reasonable suspicion” in violation of the

App. 44
Fourth and Fourteenth Amendments. (R.1,
Compl. ¶ 16). He further alleges that he was
“unlawfully and maliciously arrested ... and
wrongfully detained[.]” (Id. ¶ 17). His
unlawful search claim, meanwhile, asserts
that “Defendant Officers searched [his]
person and his car without a search warrant
and without probable cause to believe [he]
was committing or had committed a crime” in
violation of the Fourth Amendment. (Id. ¶
20).
In seeking partial summary judgment,
Defendants argue that Martin “can only
proceed on his claim related to his brief
detention on scene before the handgun and
drugs were found, the
Page 5
search of his person, and the search of his
vehicle.” (R.37, Opening Br. at 9).4 According
to Defendants, once the police officers
discovered the handgun and cocaine in
Martin’s car, probable cause existed to arrest
Martin, precluding him from recovering
Defendants recognize that “Plaintiff’s claims related to his
initial stop, handcuffing, the search of his person, and the
search of his vehicle” depend on “disputed facts.” (R.52, Reply
Br. at 1).
4

App. 45
damages related to his 65-day incarceration
on felony charges. After reviewing the
summary judgment record and applicable
precedent, the Court agrees.
I. The Existence of Probable Cause for
Weapons and Drug-Related Offenses
“Probable cause to arrest is an absolute
defense to any claim under Section 1983
against police officers for wrongful arrest,
false imprisonment, or malicious prosecution.” Mustafa v. City of Chicago, 442 F.3d
544, 547 (7th Cir. 2006). Where the
underlying facts are undisputed in a false
arrest case, the court can determine whether
probable cause supported the arrest at the
summary judgment stage. See Abbott v.
Sangamon Cty., Ill., 705 F.3d 706, 714 (7th
Cir. 2013).
Here, it is undisputed that, on May 24,
2013, Martin was in possession of an illegal
handgun and cocaine in violation of various
penal statutes, including 720 ILCS 5/241.7(a), 720 ILCS 5/24-1.1(a), 720 ILCS 5/245(b), and 720 ILCS 570/402. (R.38, Rule
56.1(a)(3) Stmt. Facts ¶¶ 9-10, 12-13). By

App. 46
failing to refute these facts (and Defendants'
related arguments) in response to the present
motion, Martin has effectively conceded
that—once the Defendant Officers recovered
contraband in his car—probable cause existed
for his May 24, 2013 arrest. See Holmes v.
Vill. of Hoffman Estate, 511 F.3d 673, 679
(7th Cir. 2007) (“A police officer has probable
cause to arrest an individual when the facts
and circumstances that are known to him
reasonably support a belief that the
individual has committed, is committing, or is
about to [ ] commit a crime”).5 The fact that
Defendants only later learned about Martin’s
criminal history
Page 6
(as relevant to two of the felony charges)
In addition, Martin has developed no argument that “the
initial seizure was the arrest, and not merely an investigatory
detention,” such that post-seizure observations “would not
factor into the probable-cause inquiry.” See Gutierrez v.
Kermon, 722 F.3d 1003, 1007 n.1 (7th Cir. 2013); cf. Ramos v.
City of Chicago, 716 F.3d 1013, 1018 (7th Cir. 2013) (“The
proliferation of cases in this court in which ‘Terry’ stops involve
handcuffs and everincreasing wait times in police vehicles is
disturbing, and we would caution law enforce-ment officers that
the acceptability of handcuffs in some cases does not signal that
the restraint is not a significant consideration in determining
the nature of the stop”).
5

App. 47
does not vitiate the probable cause
determination, where the officers recovered
on scene a handgun with a defaced serial
number and a plastic baggie containing crack
cocaine. See id. at 682 (“probable cause to
believe that a person has committed any
crime will preclude a false arrest claim, even
if the person was arrested on additional or
different charges for which there was no
probable cause”); Abbott, 705 F.3d at 715 (“an
arrest can be supported by probable cause
that the arrestee committed any crime,
regardless of the officer’s belief as to which
crime was at issue”).
Similarly, in this Section 1983 action, the
fact that Martin prevailed on a suppression
motion related to the initial traffic stop does
not vitiate the probable cause determination
with respect to the discovered contraband.
The Seventh Circuit’s recent opinion
in Vaughn v. Chapman is instructive on this
issue. In Vaughn, an Illinois state trooper
stopped the plaintiff—a felon then living in
Arizona—for purported traffic infractions
while he was driving through Illinois. See No.
16-1065, 2016 WL 5944726, at *1 (7th Cir.
Oct. 13, 2016). After learning that Vaugh

App. 48
“was driving on a suspended license and was
wanted on a warrant from Wisconsin[,]” the
trooper called for a drug-sniffing dog. Another
Illinois state trooper then arrived, who—
according to Vaughn—“ ‘signaled’ the dog to
give a false alert so that the troopers would
have an excuse to search the car.” The
troopers found a pistol in the trunk of the
car. Id. They then took Vaugh to county jail
and contacted Arizona authorities, learning
that “Vaughn was suspected of committing an
armed robbery and aggravated assault a few
days earlier.” Id. The state prosecutor later
charged Vaught with possession of a firearm
as a felon in violation of 720 ILCS
Page 7
5/24–1.1(a). Id. Vaughn remained in custody
from August 2013 through December 2014,
when the prosecutor dismissed his case to
allow the Arizona prosecution to proceed.
Id. Vaughn then brought suit against “everyone involved in the criminal case,” including a
claim against the individual troopers for
malicious prosecution. Id. at *1-2.
In relevant part, the Seventh Circuit noted
that, “[u]nder both federal and state law, the
existence of probable cause is a complete

App. 49
defense to malicious prosecution[.]” Id. at *2
(citing Johnson v. Saville, 575 F.3d 656, 659
(7th Cir. 2009)). The Seventh Circuit then
held:
Here the troopers had discovered a
firearm in the trunk of the car Vaughn
was driving and learned from a records
search that Vaughn is a felon. They also
learned from authorities in Arizona
that Vaughn was a suspect in an
aggravated assault and armed robbery
involving a weapon of the same caliber.
This was sufficient [to establish
probable cause].
Although Vaughn alleges that this
evidence was the fruit of an illegal
search of the car, this would not
undermine its relevance to the question
of probable cause. The exclusionary rule
does not apply in a § 1983 suit against
police officers. See Lingo v. City of
Salem, 832 F.3d 953, 958-959 (9th Cir.
2016); Black v. Wigington, 811 F.3d
1259, 1267-68 (11th Cir. 2016); Townes
v. City of New York, 176 F.3d 138, 145
(2d Cir. 1999); Wren v. Towe, 130 F.3d
1154, 1158 (5th Cir. 1997) ... Thus,

App. 50
regardless
of
whether
Troopers
Chapman and Howell had justification
for searching the trunk of the car that
Vaughn was driving, their discovery
established probable cause for the
charge and thus defeated any claim of
malicious prosecution. See Johnson, 575
F.3d at 664.

Id. at *2-3.
In this case, even assuming that the
recovered contraband constituted “the fruit of
an illegal search of [Martin’s] car,” such a fact
does not “undermine its relevance to the
question of probable cause.” See id. In other
words, “regardless of whether [the Defendant
Officers] had justification for searching ... the
car that [Martin] was driving, their discovery
established probable cause for the charge[s]
and thus defeated any claim” of false arrest
under Section 1983. See id. As other Circuit
Courts have recognized, “The lack of probable
cause to stop and search does not vitiate the
probable cause to arrest, because (among
other reasons) the fruit of the poisonous tree
doctrine is not available to assist a § 1983
claimant.” See Townes v. City of New York,
Page 8

App. 51
176 F.3d 138, 149 (2d Cir. 1999); see also
Lingo v. City of Salem, 832 F.3d 953, 960 (9th
Cir. 2016) (rejecting the suggestion that
“probable cause to arrest may be supported
only by information that was obtained in
accordance with the Fourth Amendment”):Black v. Wigington, 811 F.3d 1259, 1268
(11th Cir. 2016) (“We now join our sister
circuits and hold that the exclusionary rule
does not apply in a civil suit against police
officers”); Hector v. Watt, 235 F.3d 154, 15761 (3d Cir. 2000) (same); Wren v. Towe, 130
F.3d 1154, 1158 (5th Cir. 1997) (same).
District courts, too, have recognized that
the exclusionary rule does not apply to
Section 1983 claims. See, e.g., Williams v.
Edwards, No. 10 C 1051, 2012 WL 983788, at
*5-7 (N.D. Ill. Mar. 22, 2012) (“The court
concludes that the undisputed evidence of
Williams’s drug use and possession establishes probable cause for his ultimate arrest
regardless of whether the initial stop was
constitutionally valid”); Dyson v. Vill. of
Midlothian, No. 12-CV-7632, 2015 WL
778850, at *7 n.7 (N.D. Ill. Feb. 18, 2015)
(“While in a criminal case the ‘fruit of the
poisonous tree’ doctrine might render the

App. 52
arrest in this case tainted by the possible
constitutional infirmity of the initial stop, no
such doctrine extends to civil cases for false
arrest”); Swanigan v. Trotter, No. 7 C 4749,
2011 WL 658156, at *3 (N.D. Ill. Feb. 14,
2011) (same); Colbert v. Willingham, No. 13CV-2397, 2015 WL 3397035, at *5 n.5 (N.D.
Ill. May 26, 2015) (same); Rivera v. Burke,
No. 06C0734, 2008 WL 345612, at *5 (N.D.
Ill. Feb. 7, 2008) (same); Bradshaw v.
Mazurski, No. 03 C 2074, 2004 WL 170337, at
*6 (N.D. Ill. Jan. 15, 2004) (same); Williams
v. Carroll, No. 08 C 4169, 2010 WL 5463362,
at *4-5 (N.D. Ill. Dec. 29, 2010)(same):
Cannon v. Christopher, No. 1:06-CV-267,
2007 WL 2609893, at *4 (N.D. Ind. Sept. 6,
2007) (“Several federal courts in the Seventh
Circuit have adopted the Townes principle
and applied it to dismiss cases where probable cause existed despite an allegation of an
improper initial stop and search”).
Page 9
In this case, disputed facts exist with
respect to the reasonableness of the initial
stop and search of Martin and his car. If such
conduct was unjustified, Defendants “may be
liable for false arrest for an improper

App. 53
investigative detention[,]” see Edwards, 2012
WL 983788 at *7, and Martin may be entitled
to nominal damages resulting from such
Fourth Amendment violation. See Townes,
176 F.3d at 145 (“Here, the only actionable
violations of that [Fourth Amendment] right
are the stop of the taxicab and the associated
seizure and search of Townes’s person, which
alone might at most support slight or nominal
damages”). Based on the undisputed facts,
however, probable cause existed to arrest
Martin for weapons and drug-related offenses
on May 24, 2013. The existence of probable
cause “defeat[s] any claim” of false arrest
following the contraband discovery. See
Vaughn, 2016 WL 5944726 at *3; Mustafa,
442 F.3d at 547. Accordingly, Martin cannot
“recover for his [65-day] incarceration before
the charges against him were dropped.” See Edwards, 2012 WL 983788 at
*8; see also Carroll, 2010 WL 5463362 (“Having determined that probable cause emerged
at least as early the discovery of the guns and
I.D.s, there can be no recovery for false arrest
under § 1983 after that point”); Townes, 176
F.3d at 149 (“Neither may Townes recover
compensatory damages for his arrest and prearraignment detention ... Ultimately, [his]

App. 54
only possible damage claim would be limited
to the brief invasion of privacy related to the
seizure and initial search of his person”).
II. Martin’s Response Brief
Instead of addressing authorities such
as Townes, Carroll, and Edwards, Martin
urges the Court to examine the damages
available to a Section 1983 litigant—
including for incarceration, legal fees, and/or
emotional distress—by reference to principles
of proximate causation. In particular, he
argues: (i) that the Seventh Circuit’s decision
in Kerr v. City of Chicago, 424 F.2d 1134 (7th
Cir. 1970), is dispositive and allows recovery
here, as does a district court decision
Page 10
from the District of New Mexico; and (ii)
that, in any event, whether independent
intervening actors—such as Martin himself—
caused his incarceration damages is a
question for the jury, not for summary
judgment. Ultimately, however, Martin’s
arguments do not convince the Court to
deviate from the above-discussed precedent.
A. Kerr v. City of Chicago
The Court first addresses the import

App. 55
of Kerr v. City of Chicago. In Kerr, the
plaintiff alleged that the Chicago police had
violated his constitutional rights by, inter
alia, obtaining an involuntary confession
through the use of physical force, and using
that unlawful confession to detain him for 18
months. 424 F.2d at 1138. The Seventh
Circuit observed, without further explanation, that “[a] plaintiff in a civil rights action
should be allowed to recover the attorneys'
fees in a state criminal action where the
expenditure is a foreseeable result of the acts
of the defendant.” Id. at 1141. Given case law
developments since the Seventh Circuit
decided Kerr almost 47 years ago, and factual
differences from Kerr, however, this Seventh
Circuit statement does not convince the Court
to deny partial summary judgment here.
In particular, Kerr does not address
whether alleged damages resulting from
detention or prosecution pursuant to
a lawful arrest—i.e., where probable cause
supported the arrest—are recoverable in a
Section 1983 false arrest action. Contra id. at
1140 (“an arrest without a warrant and
without probable cause [is] unlawful”). To the
contrary, Seventh Circuit precedent supports

App. 56
that such damages are not recoverable—as a
matter of law—insofar as “[p]robable cause is
a bar to claims of false arrest under 42 U.S.C.
§ 1983[.]” Huon v. Mudge, 597 Fed.Appx. 868,
877 (7th Cir. 2015); Holmes, 511 F.3d at 67980 (“If the officer had probable cause to
believe that the person he arrested was
involved in criminal activity, then a Fourth
Amendment
Page 11
claim for false arrest is foreclosed”).6 Without
a showing of liability on a false arrest
theory following the contraband discovery,
the Court need not determine Martin’s
corresponding entitlement to damage recovery. Contra Borunda v. Richmond, 885 F.2d
1384, 1389 (9th Cir. 1988) (“A plaintiff who
As the Supreme Court has explained, the tort of false
imprisonment remedies a “sort of unlawful detention” –
specifically, one “without legal process.” See Wallace v. Kato,
549 U.S. 384, 389 (2007). The tort of malicious prosecution,
meanwhile, remedies unlawful detention stemming from the
wrongful institution of legal process – beginning, for example,
when the individual “is bound over by a magistrate or arraigned
on charges.” Id. at 389-90; see also Serino v. Hensley, 735 F.3d
588, 594 (7th Cir. 2013) (“when the arrest takes place without a
warrant, the plaintiff only becomes subject to legal process
afterward, at the time of arraignment”). Martin has not
asserted a malicious pro-secution claim here.
6

App. 57
establishes liability for deprivations of
constitutional rights actionable under 42
U.S.C. § 1983 is entitled to recover compensatory damages for all injuries suffered as a
consequence of those deprivations”).
In this case, the existence of probable
cause defeats any claim for compensatory
damages for Martin’s arrest and prearraignment detention.7 See Townes, 176
F.3d at 149. As the Second Circuit observed
in Townes:
Although the common law tort of false
arrest (or false imprisonment) allows
plaintiffs to seek damages from “the
As the Seventh Circuit has recognized, even if an arrest lacks
probable cause, an individual seeking relief under a false arrest
theory “is entitled to recover only for injuries suffered from the
time of arrest until his arraignment.” Wallace v. City of
Chicago, 440 F.3d 421, 425 (7th Cir. 2006), aff’d sub nom.
Wallace v. Kato, 549 U.S. 384 (2007) (citing Wiley v. City of
Chicago, 361 F.3d 994, 998 (7th Cir. 2004 (“[W]e have held that
the scope of a Fourth Amendment claim is limited up until the
point of arraignment”) and Gauger v. Hendle, 349 F.3d 354,
362-63 (7th Cir. 2003) (“[T]he interest in not being prose-cuted
groundlessly is not an interest that the Fourth Amendment
protects”)). As noted above, Martin has not asserted a malicious
prosecution claim based on post-arraignment conduct. Even if
he had, “[p]robable cause to arrest is an absolute defense to any
claim under Section 1983 against police officers for . . .malicious
prosecution.” See Mustafa, 442 F.3d at 547.
7

App. 58
time of detention up until issuance of
process or arraignment, but no[ ]
more,” Keeton et al., supra, § 119, at
888, the existence of probable cause
defeats any such claim. The individual
defendants here lacked probable cause
to stop and search Townes, but they
certainly had probable cause to arrest
him upon discovery of the handguns in
the passenger compartment of the
taxicab in which he was riding ...
Ultimately, Townes’s only possible
damage claim would be limited to the
brief invasion of privacy related to the
seizure and initial search of his
person.

Id. (citation omitted). The Court finds this
reasoning both persuasive and applicable.
Given the Seventh Circuit’s positive citation
of Townes in Vaughn, see 2016 WL 5944726
at *3, the Court
Page 12
declines to interpret Kerr as setting forth a
broad rule that “a plaintiff whose constitutional rights have been violated ... is entitled
to recover damages for incarceration, legal
fees, and/or for emotional distress caused by

App. 59
an unlawful detention or search.” (R.46,
Response Br. at 7).
B. Train v. City of Albuquerque
The Court acknowledges, nonetheless, a
district court decision from the District of
New Mexico, which held that a plaintiff who
raises a “constitutional claim based on [an]
illegal search” may be entitled to recover
damages for post-indictment proceedings,
assuming that the constitutional deprivation
proximately caused the asserted damages. See generally Train v. City of Albuquerque, 629 F. Supp. 2d 1243 (D.N.M. 2009)
(“Train II”). In so concluding, the Train court
looked to the Tenth Circuit’s guidance “about
the interests that the Fourth Amendment
protects,” including “liberty, property, and
privacy interests—a person’s sense of security
and individual dignity.” Id. at 1252 (citing Holland ex rel. Overdorff v. Harrington,
268 F.3d 1179, 1195 (10th Cir. 2001)). The
district court then reasoned:
According to the Tenth Circuit’s
guidance on the Fourth Amendment,
any damage award available for a
Fourth-Amendment violation under 42
U.S.C. § 1983 should be tailored to

App. 60
compensating losses of liberty, property,
privacy, and a person’s sense of security
and individual dignity. While it may not
be an evil to uncover crime, the drafters
obviously did not think uncovering
crime was a higher value than
protecting and securing a person’s home
from unreasonable searches. Federal
criminal charges, federal detention, and
all of the negative consequences of those
charges and attendant to federal
custody implicated Train’s interest in
liberty and his sense of security and
individual dignity. That imprisonment
occasioned economic losses. Such losses
should be compensable, given that they
implicate the interests that the Tenth
Circuit has explained the Fourth
Amendment protects.

Id.

The Train court further noted the
existence of “evidence from which a reasonable jury might infer that the Defendants'
actions proximately caused” such damages.
Id. at 1253, 1255.
After reviewing applicable precedent,
however, the Court declines to follow the
reasoning in Train. As an initial matter,

App. 61
the Train court deemed itself “not bound to
adhere to
Page 13
the common-law contours” of the tort of false
arrest, insofar as the plaintiff had brought a
“constitutional claim based on [an] illegal
search” rather than a Section 1983 false
arrest claim. See id. at 1255; see also Train v.
City of Albuquerque, No. CIV08-0152JB/RLP,
2009 WL 1330095, at *2 (D.N.M. Apr. 13,
2009) (“Train I”) (“Train brought this lawsuit
in state court for violations of his rights
under the Fourth Amendment to the United
States Constitution. The Defendants filed a
notice of removal, removing this case to
federal court”). Here, by contrast, Martin has
plainly brought a Section 1983 false arrest
claim. (R.1). Accordingly, the Court is bound
by precedent such as Gauger v. Hendle, 349
F.3d 354, 362-63 (7th Cir. 2003), limiting
available damages “to the harm [the criminal
defendant] incurred from the false arrest
before he was charged.” See Gauger v.
Hendle, 349 F.3d 354, 362-63 (7th Cir. 2003)
(citing Heck v. Humphrey, 512 U.S. 477, 484
(1994), Townes, 176 F.3d at 145-48,
and Hector, 235 F.3d at 157-61), abrogated on

App. 62

other grounds by Wallace v. City of Chicago,
440 F.3d 421 (7th Cir. 2006). Indeed, in this
case, the existence of probable cause to arrest
means that Martin cannot recover even
for pre-indictment damages following the
contraband discovery. See Townes, 176 F.3d
at 149. The Train court, by contrast, did not
purport to examine whether probable cause
existed to arrest the plaintiff following the
discovery of a firearm in his apartment. See Train I, 2009 WL 1330095 at *10
(“Ultimately, Pettit and Simmons did not
have a sound basis to conduct a warrantless
search of the apartment”); Train II, 629 F.
Supp. 2d at 1246 (“The Court has already
found that the search of Train’s apartment
was unlawful and granted summary
judgment in Train’s favor on that issue”). For
these reasons, Train is not instructive here.
Furthermore, although the district court
in Train rejected a series of “policy arguments” regarding the non-compensability of
post-indictment damages stemming from an
unlawful
Page 14
search, see Train II, 629 F. Supp. 2d at 125354, more recent Circuit Court cases have

App. 63
entertained and affirmed such arguments. As
the Ninth Circuit, for example, recently
observed:
“[I]n a § 1983 suit, the need for deterrence is minimal. Here, application of
the exclu-sionary rule would not
prevent the State from using illegally
obtained evidence against someone, but
instead would prevent state actors
merely from defending themselves
against a claim for monetary damages.
Exclusion of evidence in this context
would not remove any preexisting
incentive that the government might
have to seize evidence unlawfully. It
would simply increase state actors'
financial exposure in tort cases that
happen to involve illegally seized
evidence. In effect, § 1983 plaintiffs
would receive a windfall allowing them
to prevail on tort claims that might
otherwise have been defeated if critical
evidence had not been suppressed. Even
if such application of the rule might in
some way deter violative conduct, that
deterrence would impose an extreme
cost to law enforcement officers that is

App. 64
not generally countenanced by the
doctrine.
*8 Lingo, 832 F.3d at 958–59. The Eleventh
Circuit, too, recently observed:
The cost of applying the exclusionary
rule in this context is significant:
officers could be forced to pay damages
based on an overly truncated version of
the evidence. And the deterrence benefits are miniscule. Police officers are
already deterred from violating the
Fourth Amendment because the evidence that they find during an illegal
search or seizure cannot be used in a
criminal prosecution—the primary “concern and duty” of the police. Moreover,
plaintiffs can still sue a police officer for
the illegal search or seizure, regardless
whether the officers can rely on illegally
obtained evidence to defend themselves
against other types of claims. This
threat of civil liability will adequately
deter police officers from violating the
Fourth Amendment, whether or not the
exclusionary rule applies in civil cases.

Black v. Wigington, 811 F.3d at 1268
(citations omitted). The Seventh Circuit, in

App. 65
turn, has cited both Lingo and Black with
approval. See Vaughn, 2016 WL 5944726 at
*3.
In the Section 1983 context, “the rules
governing compensation for injuries caused
by the deprivation of constitutional rights
should be tailored to the interests protected
by the particular right in question.” Carey v.
Piphus, 435 U.S. 247, 258-59 (1978). In this
case, Martin invokes his Fourth Amendment
right to be free from unreasonable searches
and seizures. A disconnect exists, however,
between the alleged constitutional violation
and the injury for which Martin now seeks a
recovery—that is, his 65-day incarceration on
felony charges. In view of this disconnect, the
Court agrees with the reasoning of Townes:
“Victims of unreasonable searches
Page 15
or seizures may recover damages directly
related to the invasion of their privacy ... but
such victims cannot be compensated for
injuries that result from the discovery of
incriminating evidence and consequent
criminal prosecution.” See Townes, 176 F.3d
at 148; accord Hector, 235 F.3d at 157 (“the
damages incurred in [the post-indictment

App. 66
legal] process are too unrelated to the Fourth
Amendment’s privacy concerns”) (discussing Carey). Although the Seventh Circuit
has not expressly adopted this principle
regarding compensability, courts in this
District have applied it. See, e.g., Carroll,
2010 WL 5463362 at *4-5; Edwards, 2012 WL
983788 at *7-8. Given this reasoning, and
given the Seventh Circuit’s positive citation
of Townes and Hector in Gauger and Vaughn,
the Court is likewise persuaded. Accordingly,
the Court declines to follow the reasoning set
forth in Train.
C. The Proximate Cause Inquiry
Contrary
to
Martin’s
suggestion,
moreover, the Court need not undertake a
causation analysis in determining the present
motion.8 Although the Train court left the
Even applying traditional causation principles, it seems that—
while “ordinary principles of tort causation” apply with respect
to Martin’s initial stop and search claims—the “fruit of the
poisonous tree doc-trine is not available to elongate the chain of
causation” with respect to his false arrest claim following the
contraband discovery, including his $110,500 damage claim for
a 65-day incarceration. See Townes, 176 F.3d at 146; see also id.
(“allowing this and other § 1983 actions to proceed solely on a
fruit of the poisonous tree theory of damages . . . would distort
basic tort concepts of proximate causation”); accord Edwards,
2012 WL 983788 at *7 (noting the same).
8

App. 67
proximate cause inquiry to the jury, it did so
in light of disputed “evidence.” In relevant
part, the Train court held:
The parties in this case dispute
causation. Train has evidence of
injuries, including legal costs, lost
wages, and emotional distress, which a
reasonable jury might find were a foreseeable consequence of the constitutional deprivation and which would not
have occurred absent the constitutional
deprivation. A reasonable jury might
infer from the evidence that the constitutional deprivation proxi-mately
caused Train’s asserted losses. On the
other hand, Simmons and Pettit have
evidence that other parties, including
possibly Train himself, his criminal
defense attorney, and the grand jury
that returned an indictment against
him, proximately caused the asserted
injuries. In light of the evidence, the
Court believes proximate cause in this
case is appropriately left to a jury.
Page 16

See Train II, 629 F. Supp. 2d at 1253. In this
case, however, regardless of whether an

App. 68
“intervening judgment” by a judge or grand
jury broke the causal chain between
Defendants' conduct and Martin’s 65-day
incarceration, Martin “is foreclosed from
recovery for a second, independent reason:
the injury he pleads (a violation of his Fourth
Amendment right to be free from unreasonable searches and seizures) does not fit the
damages he seeks (compensation for his
[incarceration] ).” See Townes, 176 F.3d at
146-47; see also Hector, 235 F.3d at 161
(“Given that the cases on intervening causes
are legion and difficult to reconcile ... and
that we have other, sufficient grounds for
resolving this case, we will not reach the
issue of intervening causation”). Following
the reasoning of Townes and Hector—which
the Train court explicitly declined to follow—
the Court does not reach the issue of
intervening causation.
Accordingly, the Court grants Defendants’ motion for partial summary judgment.
While Martin’s Section 1983 case may
proceed as to the initial stop and search of his
person and car on May 24, 2013—before
Defendants’ discovery of the illegal firearm
and crack cocaine—he may not seek damages

App. 69
based on Defendants’ post-discovery conduct,
including damages related to his 65-day
incarceration. See Townes, 176 F.3d at 149
(“Ultimately, Townes’s only possible damage
claim would be limited to the brief invasion of
privacy related to the seizure and initial
search of his person”); see also Edwards, 2012
WL 983788 at *8 (“while Williams might be
entitled to damages for harm he suffered as a
result of being unlawfully removed from the
car at gunpoint, he would not be able to
recover for his fourteen-month incarceration
before the charges against him were
dropped”); Carroll, 2010 WL 5463362 at *5
(“Having determined that probable cause
emerged at least as early the discovery of the
guns and I.D.s, there can be no recovery for
false arrest under § 1983 after that point”).
Page 17
CONCLUSION
For the foregoing reasons, the Court
grants Defendants' motion for partial
summary judgment. (R.36).
Dated: January 5, 2017

App. 70
ENTERED
___s/____________________
AMY J. ST. EVE
United States District Court Judge

